CONTENTS OF APPENDIX
Appendix A: Welp ALJ letter of May 5, 2002
Appendix B: Summary of ALJ Welp March 8, 2002 discussion
Appendix C: April 26, 2011 US Tax Court 15907-10, Judge Kroupa, Agent Polsky
had already struck Welp record reverting taxes to zero as determined by Welp.
Appendix D- January 10, 2011 reduction of tax computation due from $256,264.09
to zero because of Welp determinations.
Appendix E- December 13, 2010 reduction of tax computation due from $601,033.20
to zero because of Welp determinations.
Appendix F: Notice of Federal Tax Lien wrongly filed in Holt County Register of
Deeds and violating Welp determinations, damages of $1 million per day from date
of filing owed to Widtfeldt for each IRS agent involved.
Appendix G: 19-3372 Court wrongfully hiding copies of Welp paperwork which
must be in the file to avoid automatic reduction of tax to zero.
Appendix H: 8:18 cv 0453 September 17, 2019 Rossiter Order abandons trial dates
in December 2019 and January 2020 and violates Welp determinations.
Appendix I: 8:18 cv 0453 Judge Rossiter wrongfully enters orders precluded by the
Welp determinations.
Appendix J- 8-18 cv 045J pacer printout of wrongful Rossiter proceeding in
violation and precluded by Welp determinations.
Appendix K- 19-3372 per curiam US Court of Appeals case appealing Rossiter
ruling ignores Welp determinations exposing Judges Colloton, Benton and Robes to
nullification.

SHntteb States* Court of Uppeate
Jfor tf)E Ctgbtf) Circuit

No. 19-3372

United States of America
Plaintiff - Appellee
v.
James A. Widtfeldt
Defendant - Appellant

Appeals from United States District Court
for the District of Nebraska - Omaha

Submitted: September 29, 2020
Filed: October 8, 2020
[Unpublished]

Before COLLOTON, BENTON, and KOBES, Circuit Judges.

PER CURIAM.
James Widtfeldt appeals the district court’s1 order granting the government’s
motion for summary judgment in its action to collect unpaid gift and estate taxes

fThe Honorable Robert F. Rossiter, Jr., United States District Judge for the
District of Nebraska.

Appellate Case: 19-3372

Page: 1

Date Filed: 10/08/2020 Entry ID: 4963681

owed by Widtfeldt, and to order the sale of his property to satisfy his tax liability.
Following careful de novo review, see United States v. Scheming, 187 F.3d 796,800
(8th Cir. 1999), we agree with the district court that there was no genuine issue as to
any material fact regarding Widtfeldt’s personal liability for the unpaid taxes, see 26
U.S.C. § 6324(a) (estate tax liability), § 6324(b) (gift tax liability); see also Widtfeldt
v. Comm’r, 449 Fed. Appx. 561 (8th Cir. 2012) (unpublished per curiam). The
district court’s issuance of the order of sale was also proper. See 26 U.S.C. § 7403
(authorizing action to enforce lien or to subject property to payment of tax debt). The
judgment is affirmed, see 8th Cir. R. 47B, and Widtfeldt’s pending motions are
denied as moot.

-2-

Appellate Case: 19-3372

Page: 2

Date Filed: 10/08/2020 Entry ID: 4963681

8:18-cv-00453-RFR-SMB Doc # 43 Filed: 09/17/19 Page 1 of 7 - Page ID # 483

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF AMERICA,
Plaintiff,

8:18CV453

v.
JAMES WIDTFELDT,

MEMORANDUM
AND ORDER

Defendant.
This matter is before the Court on the government’s Motion for Summary Judgment
(Filing No. 36) against defendant James Widtfeldt1 (“Widtfeldt”) with jurisdiction under
26 U.S.C. § 7402(a) and 28 U.S.C. § 1340. Widtfeldt opposes the government’s motion
and moves to dismiss (Filing No. 41) this case.

For the reasons stated below, the

government’s motion is granted and Widtfeldt’s motion is denied.
I.

BACKGROUND2
In 2004, Gusteva Widtfeldt (“Gusteva”), Widtfeldt’s mother, gifted Widtfeldt two

parcels of real property—River Place and O’Neill Rental Houses—worth $1,041,987
(“gifted properties”). On February 8, 2006, Gusteva died. Widtfeldt, the executor of
Gusteva’s estate (“estate”), received or became titleholder to property included in the

1Widtfeldt, an attorney indefinitely suspended from practicing law in Nebraska, is
representing himself in this matter.
2In his response (Filing No. 40), Widtfeldt failed to provide a “concise response to
[the government’s] statement of material facts,” and the government’s properly referenced
material facts are considered admitted. NECivR 56.1(b)(1); see also Ballard v. Heineman,
548 F.3d 1132, 1133 (8th Cir. 2008) (considering statements of fact admitted under
NECivR 56.1 when the opposing party did not respond). As has been his approach in this
and other matters, Widtfeldt has not offered pertinent (or any) evidence to support his
position and conspiracy theories regarding Lyme disease, judicial appointments, and so
forth.

8:18-cv-00453-RFR-SMB Doc # 43 Filed: 09/17/19 Page 2 of 7 - Page ID # 484

estate. Among that property were two parcels of real property referred to as Fink Place
and Rock Falls Place, valued $896,180 and $912,128, respectively, at the time of Gusteva’s
death.
The Internal Revenue Service (“IRS”) examined the estate and determined the estate
owed both federal gift and estate taxes. The IRS discovered neither Gusteva nor the estate
filed a federal gift-tax return for the gifted properties. Nor did the estate file a federal
estate-tax return on Gusteva’s death. For the gifted properties, the IRS determined the
estate owed $305,141 in gift tax, $68,659.73 in late-filing penalties, and $76,285.25 in latepayment penalties. See 26 U.S.C. § 6651(a)(1) and (2). Further, the IRS found the estate
owed $170,954 in estate tax and $34,191 for an inaccuracy penalty, see id. § 6662(a).
On May 5, 2010, the IRS notified (Filing No. 38-2) Widtfeldt, as the estate’s
executor, of the tax deficiencies. Widtfeldt challenged the deficiencies in the United States
tax court (“tax court”). When Widtfeldt filed (like here) several frivolous pleadings and
raised numerous nonsensical arguments, the tax court warned him it would entertain a
motion to dismiss from the IRS if he did not make a relevant argument.
On April 26, 2011, the IRS filed a Motion to Dismiss for Failure to Properly
Prosecute, which the tax court granted (Filing No. 38-6) on May 16, 2011 (“tax-court
decision”). The tax court upheld the IRS’s determinations of deficiencies, and the Eighth
Circuit affirmed. See Widtfeldt v. Comm V, 449 F. App’x 561 (8th Cir. 2012) (unpublished
per curiam).
Based on the tax-court decision, on July 13,2012, the IRS made assessments against
the estate for the deficiencies. Despite the IRS issuing notice and demand for payment on
Widtfeldt, as the estate’s executor, the liabilities have not been paid. The record in this
case shows the IRS attached a lien to the estate’s property on March 19, 2013. As of
May 15, 2019, the estate owed $813,699.28 in gift tax and $394,493.28 in estate tax.

2

8:18-cv-00453-RFR-SMB Doc #43 Filed: 09/17/19 Page 3 of 7 - Page ID # 485

The government now seeks (1) a money judgment against Widtfeldt holding him
personally liable for the unpaid federal gift and estate taxes, see 26 U.S.C. § 6324, and
(2) enforcement of that judgment against real property owned by Widtfeldt, see id. § 7403.
II.

DISCUSSION
A.

Standard of Review

The Court must “grant summary judgment if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). If the movant informs the Court of the basis for its motion
and identifies the portions of the record showing the absence of a genuine dispute of
material fact, the nonmovant must respond with evidence establishing “specific facts
showing there is a genuine issue for trial.” Torgerson v. City ofRochester, 643 F.3d 1031,
1042 (8th Cir. 2011) (en banc) (quoting Celotex Corp. v. Catrett, All U.S. 317, 324
(1986)).
B.

Tax Liability

When estate tax is not paid, a lien attaches to the gross estate.

26 U.S.C.

§ 6342(a)(1). The recipient of the property included in the gross estate then becomes
“personally liable for such [unpaid] tax” up to the value of the property at the time of the
decedent’s death. Id. § 6324(a)(2). Similarly, a lien attaches to a gift if gift tax is not paid.
Id. § 6324(b). The donee of the gift then is “personally liable for such tax to the extent of
the value of the gift.” Id.
Here, Widtfeldt received numerous parcels of real property included in the estate as
well as the gifted properties from Gusteva. The government argues Widtfeldt is personally
liable for the estate’s tax deficiencies confirmed in the tax-court decision. See id. § 6324(a)
and (b).
Widtfeldt resists, insisting, without support, that he completely purchased Gusteva’s
property by 1994. In other words, Widtfeldt seeks to rehash the tax-court decision that the
3

8:18-cv-00453-RFR-SMB Doc #43 Filed: 09/17/19 Page 4 of 7 - Page ID # 486

estate owes any taxes at all. The government, however, contends claim preclusion bars
Widtfeldt from relitigating the tax-court decision.3 The Court agrees.
Under claim preclusion, “a final judgment on the merits of an action precludes the
parties ... from relitigating issues that were or could have been raised in that action.”
Magee v. Hamline Univ., 775 F.3d 1057, 1059 (8th Cir. 2015) (quoting Knutson v. City of
Fargo, 600 F.3d 992, 996 (8th Cir. 2010)). Claim preclusion applies if “(1) the first suit
resulted in a final judgment on the merits; (2) the first suit was based on proper jurisdiction;
(3) both suits involve the same parties (or those in privity with them); and (4) both suits
are based upon the same claims or causes of action.” Id. (quoting Yankton Sioux Tribe v.
U.S. Dep’t of Health & Human Servs., 533 F.3d 634, 639 (8th Cir. 2008)). “It is well
established that the doctrine of res judicata applies to the field of federal taxation.” Baptiste
v. Comm ’r ofInternal Revenue, 29 F.3d 433, 436 (8th Cir. 1994).
Claim preclusion prevents Widtfeldt from rehashing the validity of the estate’s tax
deficiencies. First, the tax court issued a final judgment on the merits, see Tax Ct. R. 123(d)
(“A decision rendered ... in consequence of a dismissal, other than a dismissal for lack of
jurisdiction, shall operate as an adjudication on the merits.”), based on proper jurisdiction,
see Tax Ct. R. 13(a) (explaining tax courts have jurisdiction over cases commenced by
taxpayers after the IRS issues a notice of deficiency in estate tax or gift tax). Next, the taxcourt case and present suit involve parties in privity—Widtfeldt in his capacity as the
estate’s executor and Widtfeldt in his personal capacity. See Baptiste, 29 F.3d at 436 (“It
is well settled that a transferor, such as the estate in the present case, and a transferee, such
as [Widtfeldt], are in privity for purposes of determining the amount of tax imposed on the
transfer of a decedent’s estate.”); United States v. Davenport, 484 F.3d 321, 326 (5th Cir.

3The government uses the phrase “res judicata.” “The preclusive effect of a
judgment is defined by claim preclusion and issue preclusion, which are collectively
referred to as ‘res judicata.’” Taylor v. Sturgell, 553 U.S. 880, 892 (2008). The Court
will address only the issue raised by the government—claim preclusion.
4

8:18-cv-00453-RFR-SMB Doc #43 Filed: 09/17/19 Page 5 of 7 - Page ID # 487

2007) (u[T]he tax liability of the donor and donee are inseparable.”). As noted by the
government, Widtfeldt, as the executor of the estate, participated in the tax-court litigation.
Finally, the tax court considered the same questions of tax delinquency raised here.
Widtfeldt already argued in tax court that the estate could not owe taxes because he owned
all of Gusteva’s property long before her death. And Widtfeldt has not presented any
argument here that could not “have been raised in that action.” Magee, 775 F.3d at 1059.
Accordingly, the tax-court decision precludes Widtfeldt from relitigating the estate’s tax
deficiencies here.4
The estate’s federal estate tax and gift tax have not been paid. Widtfeldt, the
recipient of the estate’s property and the gifted properties, is personally liable for those
unpaid taxes. See 26 U.S.C. § 6324(a) and (b). The government is entitled to judgment
against Widtfeldt for the outstanding balance of federal estate tax of $813,699.28 and
federal gift tax of $394,493.28, each with statutory interest from May 15, 2019. See id.
§§ 6601, 6621, and 6622.
C.

Enforcement

Having found Widtfeldt liable, the Court turns to the government’s enforcement
request. Once tax liability is established, the Court may order the sale of property owned
by a delinquent taxpayer to satisfy that liability. See id. § 7403(c); 28 U.S.C. § 2001
(granting the Court authority to set the terms and conditions of a sale).
Here, the government requests the Court order the sale of two properties owned by
Widtfeldt—River Place and Rock Falls Place—to satisfy Widtfeldt’s federal gift tax and
estate tax liabilities. The Court finds that request should be granted. Accordingly,
IT IS ORDERED:
4Even if claim preclusion did not apply, Widtfeldt has presented no relevant
evidence in opposition to the government’s motion to support his argument that he
purchased Gusteva’s property long before her death.
5

8:18-cv-00453-RFR-SMB Doc # 43 Filed: 09/17/19 Page 6 of 7 - Page ID # 488

1.

The government’s Motion for Summary Judgment (Filing No. 36) is granted.

2.

Defendant James Widtfeldt’s Motion to Dismiss (Filing No. 41) is denied.

3.

The government is entitled to summary judgment against Widtfeldt for
federal estate-tax liability in the amount of $394,493.28 and federal gift-tax
liability in the amount of $813,699.28, both with statutory interest after
May 15, 2019. See 26 U.S.C. §§ 6601, 6621, and 6622.

4.

The government is entitled to enforce Widtfeldt’s federal tax liabilities
against the following real properties presently owned by Widtfeldt:
a.

River Place:
Lot 1 and Lot 2 (also described as the S 1/2 NW 1/4) of Section 24,
Township 33, North, Range 13, West of the 6th P.M., Holt County,
Nebraska,
Lot 3 and Lot 4 (also described as S 1/2 NE 1/4) of Section 24,
Township 33, North, Range 13, West of the 6th P.M., Holt County,
Nebraska,
Lot 4 (also described as the SW 1/4 NW 1/4) of Section 19,
Township 33, North, Range 12, West of the 6th P.M., Holt County,
Nebraska,
The W 1/2 SW 1/4 and the SE 1/4 SW 1/4 of Section 19, Township 33,
North, Range 12, West of the 6th P.M., Holt County, Nebraska,
The NW 1/4 of Section 30, Township 33, North, Range 12, West of
the 6th P.M., Holt County, Nebraska,
The South Half of Section 24, Township 33, North, Range 13, West
of the 6th P.M., Holt County, Nebraska,
The North Half and the SW 1/4 and the N 1/2 SE 1/4 and the SW 1/4
of the SE 1/4, all in Section 25, Township 33, North, Range 13, West
of the 6th P.M., Holt County, Nebraska,
All of Section 26, Township 33, North, Range 13, West of the 6th
P.M., Holt County, Nebraska, totaling 1990 acres, more or less.

b.

Rock Falls Place:
The West Half of Section 14, Township 31, Range 13, West of 6th
PM, Holt County, Nebraska,
The W 1/2 SE 1/4 of Section 14, Township 31, Range 13, West of 6th
PM, Holt County, Nebraska,
The SE 1/4 of Section 15, Township 31, Range 13, West of 6th PM,
Holt County, Nebraska,
6

8:18-cv-00453-RFR-SMB Doc # 43 Filed: 09/17/19 Page 7 of 7 - Page ID # 489

The SE 1/4 SW 1/4 of Section 15, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
All of Section 23, Township 31, Range 13, West of 6th PM, Holt
County, Nebraska,
The South Half of Section 24, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
All of Section 25, Township 31, Range 13, West of 6th PM, Holt
County, Nebraska,
All of Section 26, Township 31, Range 13, West of 6th PM, Holt
County, Nebraska,
The East Half SE 1/4 of Section 27, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
The SE 1/4 NE 1/4 of Section 27, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
The North Half of Section 35, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
The N 1/2 SW 1/4 of Section 35, Township 31, Range 13, West of
6th PM, Holt County, Nebraska,
The SW 1/4 SW 1/4 of Section 35, Township 31, Range 13, West of
6th PM, Holt County, Nebraska, (3,400 acres, more or less).
5.

The Court orders the sale of River Place and Rock Falls Place under 28
U.S.C. §2001.

6.

Proceeds from the sale should be paid to the government first to cover the
cost of the sale and second to satisfy Widtfeldt’s federal tax liabilities. Any
residual proceeds should be paid to Widtfeldt.

7.

A separate judgment will issue.

Dated this 17th day of September 2019.
BY THE COURT:

Robert F. Rossiter, Jr.
United States District Judge

7

Additional material
from this filing is
available in the
Clerk's Office.

Additional material
from this filing is
available in the
Clerk's Office.

